                                                                 Issue Date
                                                                          July 22, 2011
                                                                 
                                                                 Audit Report Number
                                                                              2011-DE-1004




TO:        Jenise Hight, Associate Deputy Assistant Secretary for Single Family Housing,
              HU

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, Kansas City Region,
               8AGA


SUBJECT: Mountain States Mortgage Center, Sandy, UT, Did Not Follow HUD’s
           Underwriting, Quality Control, and Advertising Requirements


                                   HIGHLIGHTS

 What We Audited and Why

            We audited Mountain States Mortgage Center, a Federal Housing Administration
            (FHA)-approved direct endorsement lender. We reviewed Mountain States to
            determine whether it underwrote insured loans in compliance with U.S.
            Department of Housing and Urban Development (HUD) requirements and
            whether its quality control plan met HUD requirements. We audited Mountain
            States because the percentage of loans it originated that were seriously delinquent
            within the first year was 9.46 percent, which is higher than the FHA national rate
            of 2.85 percent.

 What We Found


            Mountain States underwrote 41 loans that did not comply with FHA requirements.
            Of the 41 FHA-insured loans reviewed, one of the loans had a significant
            underwriting deficiency, and all 41 loans contained minor underwriting




                                             1
           deficiencies. For the loan with the significant underwriting deficiency, Mountain
           States underwrote the mortgage based on an overstated appraisal.

           Additionally, Mountain States did not adequately develop or implement its quality
           control plan. Specifically, its quality control plan did not contain all of the
           required elements, and it did not ensure that its monthly quality control reviews
           met HUD requirements.

           Mountain States used misrepresentative advertising when marketing its streamline
           refinance mortgages. Some borrowers relied on a mailer used by Mountain States
           to advertise its streamline refinance loans. Based on information in the mailer,
           some borrowers did not know they were working with Mountain States and
           believed that the new refinanced loan would contain no fees or costs.

What We Recommend


           We recommend that the Associate Deputy Assistant Secretary for Single Family
           Housing require Mountain States to (1) indemnify HUD for the potential loss on
           the one improperly underwritten loan, (2) implement adequate policies and
           procedures to ensure that loans are underwritten in accordance with HUD
           requirements, (3) provide documentation showing that it followed HUD
           requirements in the use of lender advances and lender credits for the loans
           identified, (4) develop and implement a written quality control plan in accordance
           with HUD requirements, and (5) ensure that advertising complies with HUD
           requirements.

           Finally, we recommend that HUD refer Mountain States to the Mortgagee Review
           Board for consideration of taking appropriate administrative action against the
           lender for its noncompliance in underwriting FHA loans, disregard for HUD’s
           quality control requirements, and misrepresentative advertising.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the discussion draft of the audit report to Mountain States on June
           20, 2011, and requested a response by July 5, 2011. Mountain States provided
           written comments on June 30, 2011. It generally disagreed with certain elements
           of the underwriting and quality control findings. However, Mountain States
           generally agreed with the misrepresentative advertising finding.




                                            2
The complete text of the auditee’s response, along with our evaluation of that
response, can be found in appendix B of this report.




                                 3
                             TABLE OF CONTENTS

Background and Objectives                                                          5

Results of Audit
        Finding 1: Mountain States Underwrote Loans That Did Not Comply With FHA   6
                   Requirements
        Finding 2: Mountain States Did Not Adequately Develop or Implement Its     9
                   Quality Control Plan
        Finding 3: Mountain States Used Misrepresentative Advertising              12

Scope and Methodology                                                              14

Internal Controls                                                                  16

Appendixes
   A.   Schedule of Funds To Be Put to Better Use                                  18
   B.   Auditee Comments and OIG’s Evaluation                                      19
   C.   Narrative Case Summary                                                     27
   D.   Schedule of Minor Deficiencies                                             30




                                             4
                      BACKGROUND AND OBJECTIVES

Mountain States Mortgage Center’s home office is located in Sandy, UT. Additionally,
Mountain States operates branch offices in Utah, Nevada, Arizona, and Ohio. The U.S.
Department of Housing and Urban Development’s (HUD) Federal Housing Administration
(FHA) authorized the home office as a nonsupervised mortgage company on July 12, 1983, and
authorized the Sandy branch office on January 2, 2008. A nonsupervised mortgage company is a
nondepository financial entity of which the principal activity is the lending or investment of
funds in real estate mortgages. The home office underwrites all branch and home office loans.

Before December 22, 2010, Mountain States was an authorized Lender Insurance program
mortgagee; however, FHA removed it from the program because its 2-year seriously delinquent
compare ratio was 283 percent. Pursuant to Section 256 of the National Housing Act, the Lender
Insurance program enables high-performing FHA-approved lenders with acceptable default and
claim rates to endorse FHA mortgage loans automatically, without a preendorsement review
being conducted by FHA. The acceptable claim and default rate for an approved program
participant is defined as at or below 150 percent of the national average.

From January 1, 2009, through December 31, 2010, Mountain States originated 5,203 FHA-
insured loans with a total original mortgage amount of more than $850 million. Of the 5,203
loans, 492 (9.46 percent) were seriously delinquent, which is higher than the national rate of 2.85
percent.

The objectives of the audit were to determine whether Mountain States underwrote its insured
loans in compliance with HUD requirements and whether its quality control plan met HUD
requirements.




                                                5
                                RESULTS OF AUDIT

Finding 1: Mountain States Underwrote Loans That Did Not Comply
            With FHA Requirements
Mountain States underwrote 41 loans that did not comply with FHA requirements. This
noncompliance occurred because Mountain States did not have adequate policies and procedures.
As a result, the lender placed the FHA insurance fund at increased risk.


 Underwriting Did Not Meet
 FHA Requirements

              Of the 41 FHA-insured loans reviewed, 1 had a significant underwriting deficiency,
              and all 41 loans contained minor underwriting deficiencies.

              For the loan with the significant underwriting deficiency, Mountain States
              underwrote the mortgage based on an overstated appraisal. The comparables used
              for the property appraisal were not reasonable or comparable. HUD Handbook
              4155.2, paragraph 4.1.b, states that the lender is equally responsible, along with the
              appraiser, for the quality, integrity, accuracy, and thoroughness of the appraisal.
              Lenders that submit appraisals to HUD that do not meet FHA requirements are
              subject to the imposition of sanctions by the HUD Mortgagee Review Board.
              Appendix C contains a detailed narrative for the loan.

              For the loans with minor underwriting deficiencies, Mountain States did not follow
              all of FHA’s requirements, but the deficiencies were not necessarily significant
              enough to affect the overall insurability of the loans. For example, Mountain States
              paid advances totaling more than $36,000 for 17 loans and lender credits totaling
              more than $14,000 for 9 loans. However, it was unable to provide documentation
              showing that it followed HUD requirements regarding advances or credits.
              Mountain States must follow all applicable HUD requirements to ensure that
              mortgage loans are underwritten according to FHA requirements. The following
              chart summarizes the minor deficiencies identified and the number of loans with
              each type of deficiency.




                                                 6
                                Minor deficiencies                             Number of loans
                              No pre-insurance review                               41
                            Open-ended lender advances                              17
             Lack of documentation for advances used to set up escrow               14
                                      accounts
                              Lump-sum lender credit                                   9
                              No income certification                                  8
                         No late endorsement certification                             6
              Lack of documentation for credits used to set up escrow                  2
                                      accounts
                                     Missing file                                      1
                                  Unallowable fee                                      1
           Borrower had a financial interest in and relationship with lender           1
                       Borrower paid for appraisal directly                            1

           Appendix D provides the details of these minor underwriting deficiencies.

Adequate Policies and
Procedures Were Lacking


           Mountain States did not have adequate policies and procedures in place to ensure
           that loans were underwritten in accordance with HUD requirements. It did not
           have written policies or procedures for late endorsements, income certifications,
           lender advances, lender credits, and a pre-insurance review. In addition, it did not
           follow the written policies and procedures it had regarding appraisals and
           disallowable fees.

           Although Mountain States management officials said that they had brought these
           deficiencies to the attention of all Mountain States officers, managers, and
           department heads, they did not indicate how they planned to address the lack of
           adequate policies and procedures.


The FHA Insurance Fund Was
at Unnecessary Risk of Loss

           Mountain States placed the insurance fund at increased risk. Generally, the types
           of deficiencies identified did not affect the overall insurability of the loans.
           However, the pervasiveness of these deficiencies contributed to Mountain States’
           originating loans that generally had high default rates. Of the 5,203 loans
           originated during our audit period, 492 (9.46 percent) were seriously delinquent,
           which is higher than the national rate of 2.85 percent. Of the 41 loans reviewed,
           28 had 6 or fewer payments made before the first 90-day delinquency was
           reported.



                                             7
          For the significantly deficient loan, Mountain States placed the insurance fund at
          unnecessary risk for a potential loss to HUD of $188,483. This is the projected
          amount of loss to HUD for the one loan which we recommend that HUD require
          Mountain States to indemnify. To determine the potential loss, we used HUD’s
          calculation for its average loss on disposing of FHA-insured properties, which is
          59 percent of the unpaid loan balance for FY2010.

          Due to a lack of adequate policies and procedures, Mountain States underwrote 41
          loans that did not comply with FHA requirements. This noncompliance placed
          the insurance fund at increased risk. Although many of the deficiencies were
          minor, they were pervasive. HUD needs to address these issues to prevent future
          losses to the insurance fund.

Recommendations



          We recommend that the Associate Deputy Assistant Secretary for Single Family
          Housing

          1A.     Require Mountain States to implement adequate policies and procedures
                  to ensure that loans are underwritten in accordance with HUD
                  requirements.

          1B.     Require Mountain States to indemnify HUD for the potential loss on the
                  one improperly underwritten loan. The estimated loss to HUD is
                  $188,483.

          1C.     Require Mountain States to provide documentation showing that it
                  followed HUD requirements in the use of lender advances and lender
                  credits for the loans identified. If HUD requirements were not followed,
                  the Associate Deputy Assistant Secretary should determine amounts due
                  to the borrowers and require that Mountain States refund those amounts.

          1D.     Refer Mountain States to the Mortgagee Review Board for consideration
                  of taking appropriate administrative action against the lender for its
                  noncompliance in underwriting FHA loans.




                                           8
Finding 2: Mountain States Did Not Adequately Develop or Implement
            Its Quality Control Plan
Mountain States did not adequately develop or implement its quality control plan. This
condition occurred because management did not make the quality control process a priority. As
a result, the FHA insurance fund was placed at an increased risk of loss.


 Mountain States Did Not
 Develop a Compliant Quality
 Control Plan


              Mountain States did not develop a quality control plan that met HUD
              requirements. We reviewed Mountain States’ written quality control plan, dated
              September 14, 2009. The quality control plan did not include more than 32
              percent of the elements required by chapter 7 of HUD Handbook 4060.1, REV-2.
              Examples of the missing elements included the following:

                     Ensuring that quality control reviews were performed within 90 days from
                      the end of the month in which the loan closed.
                     If the lender suspected HUD staff of involvement in fraud, referring the
                      matter to the Office of Inspector General (OIG).
                     Setting up the lender’s system of analysis for early payment defaults to
                      identify patterns of the same appraiser, loan officer, loan processor,
                      underwriter, and realtor.
                     Determining whether the loan files contained all required loan processing,
                      underwriting, and legal documents.
                     Determining whether the loan was submitted for insurance within 60 days
                      of closing and if not, including a payment history showing that the loan
                      was current when it was submitted for mortgage insurance endorsement.

 Mountain States Did Not
 Implement a Compliant Quality
 Control Process

              Mountain States did not implement a quality control process that met HUD
              requirements. To determine whether Mountain States had properly implemented
              its quality control plan, we reviewed the quality control reports for loans closing
              from September 2009 through September 2010. Mountain States used a
              contractor to perform its monthly quality control reviews. The contractor did not
              always perform the monthly quality control reviews within 90 days from the end
              of the month in which the loan closed as required by paragraph 7-6A of HUD
              Handbook 4060.1, REV-2. Specifically, loans closed in October 2010 required



                                               9
           completed quality control reviews by January 29, 2011. However, as of February
           10, 2011, Mountain States had not received the report from the contractor
           performing the monthly quality control reviews.

           Additionally, for the reviews of the loans closed between September 2009 and
           September 2010, the contractor did not complete 8 of the 13 monthly reports
           within the required 90 days. These eight reports were dated between 94 and 158
           days after the end of the month being reviewed.

           Further, the monthly quality control reviews did not always include 10 percent of
           the loans originated per month as required by paragraph 7-6C of HUD Handbook
           4060.1, REV-2. The samples selected in 5 of the 13 months reviewed were
           between 7 and 9 percent of the loans originated in that month. Additionally,
           paragraph 7-6E.3 of HUD Handbook 4060.1, REV-2, requires a desk review for
           all loans selected each month with an appraisal. Of the five loans requiring desk
           appraisal reviews, only two included evidence of a desk appraisal review.

           Mountain States also did not specifically review all loans with early payment
           defaults as required by paragraph 7-6D of HUD Handbook 4060.1, REV-2. Our
           sample of 41 loans included 28 loans with early payment defaults. However, of
           the 28 early payment default loans, only 22 closed after Mountain States
           implemented a new quality control plan, dated September 2009. We later found
           that Mountain States had only reviewed 4 of these 22 early payment default loans.


Management Did Not Make Its
Quality Control Process a
Priority

           The deficiencies described above occurred because management did not make the
           quality control process a priority. Although Mountain States’ management met
           monthly to discuss the quality control review reports and coordinate corrective
           action, we noted during our evaluation of the quality control reviews the same
           types of deficiencies occurring from review to review with little or no
           documented improvement. This example is an indication of management’s not
           taking corrective action to ensure the resolution of these issues.

The FHA Insurance Fund Was
Placed at Increased Risk of
Loss

           Mountain States could not ensure that it complied with HUD’s underwriting
           requirements consistently and in a timely manner and protected itself and HUD
           from unacceptable risk, errors, omissions, and fraud. It thereby placed the FHA
           insurance fund at an increased risk of loss.



                                           10
Recommendations


          We recommend that the Associate Deputy Assistant Secretary for Single Family
          Housing

          2A.     Require Mountain States to develop and implement a written quality
                  control plan in accordance with HUD requirements.

          2B.     Refer Mountain States to the Mortgagee Review Board for disregarding
                  HUD’s quality control plan requirements. Specifically, the Mortgagee
                  Review Board should consider the imposition of administrative sanctions
                  and assessment of civil money penalties for Mountain States’ knowingly
                  maintaining a deficient quality control plan and continually disregarding
                  deficiencies noted during third-party reviews.




                                          11
Finding 3: Mountain States Used Misrepresentative Advertising
Mountain States used misrepresentative advertising when marketing its streamline refinance
mortgages. This condition occurred because of management’s emphasis and reliance on using
direct mailing as its primary method of generating business. As a result, homeowners received
inaccurate information about the terms of their streamline refinance mortgages.


Misrepresentative Advertising
Was Used

              Mountain States used misrepresentative advertising when marketing its streamline
              refinance mortgage. The advertising mailer Mountain States sent had “FHA
              PROCESSING CENTER” (figure 1) printed at the top, and the signature block
              contained the title “FHA DEPARTMENT MANAGER” (figure 2). The mailer also
              stated that the new streamline refinance mortgage would add no costs (of any kind)
              to the loan balance (figure 3). Some borrowers we spoke with believed no costs
              would be added to their new streamline refinanced loan based on Mountain States’
              advertising mailer. However, for the loans reviewed, a new upfront mortgage
              insurance premium plus various fees and costs associated with underwriting and
              closing the new streamline refinanced mortgage loan were added to the loan balance.

              Figure 1:




              Figure 2:




              Figure3:




              HUD Handbook 4060.1, chapter 2, states that an approved lender may not use
              misrepresentative advertising. Specifically, all advertising must emphasize the name


                                               12
           of the company and not the government. A lender may not improperly use the name
           or seal to imply that the advertisement is from or is endorsed by FHA. Finally, when
           HUD finds advertising abuses, it will take prompt action by referring to the
           Mortgagee Review Board and may sanction the lender and impose civil money
           penalties.


Management Relied on Direct
Mailing

           The condition described above occurred because of management’s emphasis and
           reliance on using direct mailing as its primary method of generating business.
           During various meetings, Mountain States’ management informed us that the
           primary method of marketing its FHA-insured streamline refinance loans was
           through the use of direct mailing. Accordingly, the borrowers we spoke with
           stated that they pursued refinancing their loans with Mountain States after
           receiving a mailer.

Homeowners Received
Inaccurate Information

           Homeowners received inaccurate information about the terms of their streamline
           refinance mortgages. Some borrowers did not know they were working with
           Mountain States to refinance their loans. Additionally, some borrowers believed
           they were dealing directly with the Federal Government, not a private mortgage
           company. Lastly, borrowers believed the new refinanced loan would contain no
           fees or costs based on the mailer.


Recommendations


           We recommend that the Associate Deputy Assistant Secretary for Single Family
           Housing

           3A.    Require Mountain States to develop and ensure that advertising complies
                  with HUD requirements.

           3B.    Refer Mountain States to the Mortgagee Review Board for consideration
                  of taking appropriate administrative action against the lender for its
                  misrepresentative advertising of FHA-insured loans.




                                            13
                            SCOPE AND METHODOLOGY

We performed our onsite audit work in February and March 2011 at Mountain States’ office at
1333 East 9400 South, Sandy, UT. Our audit period was January 1, 2009, through December 31,
2010.

Mountain States originated 5,203 FHA-insured mortgages from January 1, 2009, to December 31,
2010. We selected a total of 41 loans to review. Of the 41 loans reviewed, 38 were streamline
refinance loans, and three were conventional refinance loans.

The 38 streamline refinance loans included 18 randomly selected loans from the 469 loans that were
seriously delinquent within 1 year and defaulted within first 3 months.

       All loans (nine) closed after April 1, 2010,1 and had six or fewer payments before default.
       All loans (two) closed after April 1, 2010,1 and had paper binders submitted to HUD.
       All loans (nine) were submitted late for endorsement and had paper binders submitted to
        HUD.

The three conventional refinance loans included

       All loans (two) that were seriously delinquent within 1 year.
       The only loan that was submitted late for endorsement and had a paper binder submitted to
        HUD

We reviewed all of Mountain States’ quality control reports completed under the most current
quality control plan, dated September 2009.

To accomplish our objectives, we reviewed

       HUD regulations and reference materials related to single-family requirements.
       Mountain States’ underwriting and quality control policies and procedures and interviewed
        management officials and staff.
       HUD and Mountain States’ loan files and interviewed 15 borrowers.
       Mountain States’ quality control reviews and corrective actions taken.

We used origination, default, claim, and current loan status data maintained by HUD in the
Single Family Data Warehouse and Neighborhood Watch systems for background information
and in selecting our sample of loans. We did not rely on the data to base our conclusions.
Therefore, we did not assess the reliability of the data.

We classified $188,483 as funds to be put to better use. This is the projected amount of loss to
HUD for the one loan which we recommend that HUD require Mountain States to indemnify.

1
 April 1, 2010, date used to allow Mountain States time to implement changes required by Mortgagee Letter 2009-
32


                                                      14
To determine the potential loss, we used HUD’s calculation for its average loss on the
disposition of FHA-insured properties, which is 59 percent of the unpaid loan balance. The 59
percent is based on the Single Family Acquired Asset Management System’s Case Management
Profit and Loss by Acquisition as of September 2010.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls to ensure that FHA-insured loans are underwritten in accordance
                      with HUD requirements.
                     Controls to ensure the lender has developed and implemented a quality
                      control plan that complies with HUD requirements.
                     Controls to ensure that mailers used to advertise streamline refinance loans
                      comply with HUD requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:




                                                 16
   Mountain States did not have adequate policies and procedures to ensure that
    FHA-insured loans met HUD underwriting requirements (finding 1).
   Mountain States did not develop and implement a quality control plan that
    met HUD requirements (finding 2).
   Mountain States did not ensure that its mailer advertising streamline
    refinance loans met HUD requirements (finding 3).




                             17
                                    APPENDIXES


Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                            Recommendation        Funds to be put
                                   number          to better use 1/
                                           1B           $188,483



1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified.

     Implementation of our recommendation to require Mountain States to indemnify HUD
     for the one materially deficient loan will reduce the risk of loss to the FHA insurance
     fund. The amount above reflects the amount of loss HUD may incur for the one loan.
     We used HUD’s calculation for its average loss on disposing of FHA-insured properties,
     which is 59 percent of the unpaid loan balance. The 59 percent is based on HUD’s return
     on properties sold through its real estate-owned inventory for fiscal year 2010.




                                             18
    Appendix B

            AUDITEE COMMENTS AND OIG’S EVALUATION




Comment 1




                             19
Comment 2


Comment 3


Comment 4




Comment 5




Comment 6




Comment 7




            20
Comment 7




Comment 7




Comment 8




Comment 7




Comment 9




            21
 Comment 10




 Comment 11




Comment 12




              22
Comment 13




             23
                         OIG Evaluation of Auditee Comments

Comment 1   Mountain States believed the comparables selected/used were acceptable sites as
            they related to the needs of the prospective occupants of the subject property.
            Nowhere in HUD Handbook 4150.2, Chapter 4 does it state the comparables
            should “relate to the needs of the prospective occupants of the subject property”.
            The handbook does state the selection of comparable sales for analysis is based on
            the area in which the property competes and the forces/dynamics that affect the
            comparable sale properties. The five comparables selected by the appraisers are
            not similar in location, style, or design.

Comment 2   Mountain States stated the adjustments were necessary and reasonable for the
            subject market area. As stated in Appendix C, the appraiser did not properly
            adjust for age or location.

Comment 3   Mountain States agreed with the appraiser that $342,000 is the most probable
            price which the subject property should bring in a competitive and open market.
            As we discussed in Appendix C, there was a least one comparable property less
            than a ¼ mile from the subject property with similar attributes and sold for
            $262,500; which is a difference of -$79,500. The properties within the immediate
            subject properties neighborhood, but not used by the appraiser, are more
            indicative of the actual market value.

Comment 4   The insurance fund was put at risk because the subject property was over-
            appraised; therefore, it had an inflated market value. HUD should require
            indemnification on this loan because as Appendix C of this report illustrates, the
            subject property was FHA-insured for greater than its true market value.

Comment 5   We understand that the FHA handbooks did change during our audit period of
            January 1, 2009 through December 31, 2010. Even though the criteria citations
            changed, the requirements remained the same. For ease of reading and
            understandability of this report we only included the current criteria citation in the
            report. For clarity, here are the criteria citations and changes:
             HUD Handbook 4155.1, paragraph 5.A.2.i, was effective May 2009. These
               requirements were changed slightly with the update in January 2011, which is
               outside our audit period. Prior to May 2009, this requirement was outlined in
               HUD Handbook 4155.1, section 3; paragraph 1-9.J, which was effective in
               October 2003.
             HUD Handbook 4155.1, paragraph 6.C.4.a was effective in December 2009,
               and the requirements were the same as of the last update in March 2011. Prior
               to December 2009, these requirements were outlined in HUD Handbook
               4155.1, section 4; paragraph 1-12.D.7, which was effective October 2003.
             HUD Handbook 4155.2, paragraph 6.B.4.j was effective May 2009. This
               paragraph references 24 CFR 203.44, which was effective prior to, and during
               our audit period.




                                             24
                 HUD Handbook 4155.2, paragraph 8.C.5.d was effective May 2009, and the
                  requirements were the same as of the last update in December 2010. Prior to
                  May 2009, these requirements were outlined in HUD Handbook 4165.1,
                  chapter 2, section 1, paragraph 2-6.C, which was effective in April 2005.

              Throughout the audit we adjusted our findings when Mountain States was able to
              provide documentation that showed it met HUD requirements. The remaining
              findings are those loans that Mountain States was unable to provide
              documentation to show it met HUD requirements.

Comment 6     During our audit, Mountain States was unable to provide documentation that it
              followed HUD requirements in the use of lender advances and lender credits for
              the loans we identified. In working with HUD to resolve these findings,
              Mountain States will have another opportunity to provide documentation that it
              followed HUD requirements. As stated in Finding 1, we recommend that HUD
              review any documentation Mountain States may provide and determine if
              amounts are due to the borrowers.

Comment 7     As stated in Finding 1, we recommend that HUD ensure adequate policies and
              procedures are implemented.

Comment 8     Mountain States did place the insurance fund at an increased risk because the
              principal amount of the new loans with Mountain States were larger than the
              amount of the prior FHA loans that were paid off. Therefore, the FHA insurance
              fund was insuring for a larger amount of money than it would have if the loans
              were not refinanced.

Comment 9     Mountain States does acknowledge that even though it hired a third party
              contractor to develop the quality control plan and to perform its quality control
              reviews, Mountain States is ultimately responsible for ensuring that the plan and
              process met HUD requirements. As stated in Finding 2, we recommend that
              HUD ensure an adequate quality control plan is developed and implemented.

Comment 10 Please note that ‘reviewing all loans that went into early payment default’ was an
           element in Mountain States’ quality control plan. The element that was not part
           of Mountain States’ quality control plan was ‘…The lender’s system of analysis
           for early payment defaults is set up to identify patterns of the same appraiser, loan
           officer, loan processor, underwriter, and realtor.’

              Mountain States did not provide documentation showing that these processes
              were performed on a daily basis. As stated in Finding 2, we determined Mountain
              States did review 4 of the 22 early payment default loans during its monthly
              quality control reviews. However, Mountain States did not provide
              documentation of the reviews performed by its compliance officer of the loans
              with early payment defaults. Contacting the borrower of a loan with an early
              payment default is not a HUD quality control requirement.



                                              25
Comment 11 If the quality control process was a priority for Mountain States it would have
           been aware of the requirements listed in HUD Handbook 4060.1, and ensured that
           these requirements were met. We agree that it takes time for loans to process
           through the pipeline, and even more so for Mountain States given that it did not
           always perform its quality control reviews timely. Had they made the reviews a
           priority and completed them timely, they would have identified the deficiencies
           sooner and taken immediate corrective action to mitigate the impact to its loan
           pipeline.

Comment 12 Mountain States generally agreed that the marketing mailer could mislead a
           borrower.

Comment 13 We recognize Mountain States’ willingness to take corrective action to develop
           and implement adequate policies and procedures in accordance with HUD
           requirements for underwriting, quality control, and advertising. However, it does
           not expunge the fact that during the audit period Mountain States had a major
           underwriting deficiency, an inadequate Quality Control Plan, and used
           misrepresentative advertising when marketing its streamline loans. Ultimately, the
           FHA insurance fund was put at unnecessary risk and homebuyer received
           inaccurate information about the terms of its new loan.




                                             26
Appendix C

                        NARRATIVE CASE SUMMARY

HUD case number:             521-6896581
Loan amount:                 $330,585
Closing date:                March 9, 2009
Status at time of review:    Active
Unpaid principal balance:    $ 319,462

Mountain States underwrote the mortgage based on an overstated appraisal. The comparables
for the property appraisal were neither reasonable nor comparable. The property appeared to
have an appraisal price more than $100,000 higher than those of actual comparables.

Not Comparable

HUD Handbook 4150.2, chapter 4, provides the property appraisal valuation process
requirements. Section (4-6) states, “…identify the relevant market based on the area in which
the property competes and the forces/dynamics that affect that comparable sale properties.” The
appraiser did not choose properties comparable to the subject property.

Subject Property

                                                                      Property details

                                                        Year built: 1956
                                                        Square footage: 2,392’
                                                                 First floor: 1,196’
                                                                 Basement: 1,196’
                                                        Net livable area: 1,196’

                                                        Detached garage: 780 square feet (not
                                                        pictured)




The photo above was obtained from the Salt Lake County assessor’s database. The picture
illustrates the home’s appearance at the time of the appraisal in November 2008.




                                              27
Appraisal Selected Comparable Example

                                                                          Property details

                                                            Year built: 1971
                                                            Square footage: 2,848’
                                                                     First floor: 1,424’
                                                                     Basement: 1,424’
                                                            Net livable area: 1,424’

                                                            Attached garage: 378 square feet (not
                                                            pictured)

                                                            Home sold 5/21/2008 for
                                                                  $349,900


The appraiser comparable was almost 1 mile away from the subject property. It was built in
1971, making it 15 years newer than subject property. It contained 450 more square feet and had
an attached, not detached, garage. Additionally, the comparable property appeared to have a
gable roof, whereas the subject property appeared to have a flat roof.

Appropriate Comparable Example

An appropriate comparable was selected by the Salt Lake County assessor’s office based on
property size, location, market availability, square footage, and appearance.

                                                                          Property details

                                                            Year built: 1956
                                                            Square footage: 1,932’
                                                                   First floor: 1,932’
                                                            Net livable area: 1,932’

                                                            Detached garage: 572 square feet
                                                            Carport: 288 square feet

                                                            Home sold 8/28//2008 for
                                                                  $262,500



This property was less than 1/4 mile from the subject property. It was built in the same year, and
the square footage was closer in comparison. Additionally, this property contained a detached
garage and carport, the same as the subject property.



                                               28
Not Reasonable

HUD Handbook 4150.2, paragraph 4-6(B), states that the appraiser must “account for differences
between the subject property and each comparable sale.” The comparable data are adjusted to
the subject property. The appraiser did not properly adjust the comparable properties to the
subject property.

The appraiser did not adjust the comparable properties to the subject property for “actual age” or
“location.” Two of the three main comparables were 15+ years newer than subject property.
Additionally, the comparable properties were in superior locations to the subject property, which
was confirmed during an exterior visual inspection by the HUD OIG auditors.

Minor Deficiencies

Along with the overstated appraisal of the subject property, other minor deficiencies were found
during the mortgage loan review. The following minor deficiencies were specific to this loan.
Additionally, minor deficiencies noted with this loan, as well as with the other loans reviewed,
are discussed in appendix D.

Mountain States charged the borrower for a tax service fee. HUD Handbook 4155.1, paragraph
5.A.2.a, states, “…borrowers may not pay a tax service fee.” When this deficiency was brought
to the attention of Mountain States, it agreed that the fee was unallowable and reimbursed the
borrower.

On form HUD-92900-A, the lender certified that “its owners, officers, employees or directors
[do not] have a financial interest in or a relationship, by affiliation or ownership, with the builder
or seller involved in this transaction.” The borrower in this case would be the seller because the
borrower was refinancing the original mortgage loan. During the interview with the borrower
associated with this mortgage loan, it was stated that the borrower had both a professional and
personal relationship with Mountain States. The borrower stated that he worked professionally
with Mountain States providing retirement and insurance consulting for its employees.
Additionally, the loan officer who initiated the loan process and ordered the appraisal was the
daughter of the borrower.

Finally, the borrower paid the appraiser directly upon completion of the appraisal. According to
HUD Handbook 4155.2, paragraph 4.4.g, “…the lender is responsible for collecting and
promptly paying the appraisers and inspectors.” This fact was noted in the FHA case binder and
confirmed during an interview with the borrower.




                                                 29
Appendix D

                 SCHEDULE OF MINOR DEFICIENCIES




Pre-insurance Review
Mortgagee Letter 2005-36 provides the requirements of lenders participating in the Lender
Insurance program. The mortgagee letter stipulates that the same staff that originated the
mortgage or underwrote the mortgage for insurance cannot complete the pre-insurance review.
The minimum requirements for the pre-insurance reviews consist of 11 elements. Mountain
States was a participant in the Lender Insurance program during our audit period; however,


                                             30
during our review of the 41 loan files, we did not note documentation indicating that a pre-
insurance review, consisting of the minimum requirements, was performed on any of the 41
loans.

Late Endorsement Certification Not Submitted
HUD Handbook 4155.2, chapter 8, section C, discusses the requirements for late endorsement
request certification. When submitting the loan late for endorsement, Mountain States did not
always include a dated certification with all required elements on company letterhead.

Employment and Income Certification Not Submitted
Mortgagee Letter 2009-32 provides procedures regarding streamline refinance transactions and
was effective for new case numbers assigned on or after 60 days from September 18, 2009.
When submitting the loan to HUD for insurance endorsement, Mountain States did not always
include a signed and dated cover letter on its letterhead certifying that the borrower was
employed and had income at the time of loan application.

Lender Advances
Seventeen of the loans reviewed had lender advances listed on the HUD-1 settlement statement.
Mountain States explained that lender advances are amounts it paid on behalf of the borrowers.
Mountain States expects the borrower to repay it for the lender advances. HUD Handbook
4155.2, paragraph 6.B.4.j, and 24 CFR (Code of Federal Regulations) 203.44 state that lenders
cannot make open-ended advances. Mountain States was unable to provide documentation
showing the repayment terms of the advances because no formal agreement is entered into for
the repayment of the lender advances. Additionally, paragraph 8.C.5.d of HUD Handbook
4155.2 states that lenders cannot require a borrower to repay an advance if the repayment would
jeopardize the borrower’s ability to repay the mortgage and potentially cause a default. Fifteen
of these seventeen loans had three or fewer payments made before the first 90-day delinquency
was reported. Mountain States paid advances for these 15 loans totaling more than $27,000.
Mountain States explained that it does not pursue legal recourse if the borrowers do not repay the
lender advances; however, it was unable to provide documentation showing that it did not
require these borrowers to repay these advances.

HUD Handbook 4155.1, paragraph 6.C.4.a, allows the lender to offer the borrower an interest-
free advance to establish a new escrow account. Fourteen loans reviewed listed lender advances
to set up escrow accounts on the HUD-1 settlement statement; however, Mountain States was
unable to provide documentation supporting that these funds were used to set up the new escrow
accounts.

Lender Credits
HUD Handbook 4155.1, paragraph 5.A.2.i, states that the lender may pay the borrower’s closing
costs and prepaid items by “premium pricing.” The funds derived from the premium priced
mortgage may not be used for payment of debts, collection accounts, escrow shortages or missed
mortgage payments, or judgments. Furthermore, HUD Handbook 4155.1, paragraph 5.A.2.i
states the HUD-1 must contain an itemized statement indicating which items are being paid on
the borrower’s behalf. It is unacceptable to disclose only a lump sum.




                                               31
When Mountain States listed the amounts it paid on behalf of the borrower as a lump sum with
the description of “lender credit,” there was no way for HUD to ensure that the funds were not
used for unallowable payments. For 9 of the 41 loans reviewed, Mountain States listed the
general category of “lender credit” on the HUD-1 settlement statement totaling more than
$14,000.

Additionally, two loans reviewed listed lender credits to set up escrow accounts on the HUD-1
settlement statement; however, Mountain States was unable to provide documentation supporting
that these funds totaling more than $400 were used to set up the new escrow accounts.

Missing Documentation
HUD Handbook 4155.2, paragraph 8.B.1.f, requires lenders to maintain their origination binder
in either hardcopy or electronic format for 2 years from the date of endorsement. Mountain
States was unable to provide an origination binder, either in hardcopy or electronically, for FHA
loan #521-6882083.




                                               32
